No. 20-5517

In the Supreme Court of the United States
SCOTTY RAY GARDNER,
Petitioner,
v.
STATE OF ARKANSAS,
Respondent.
CERTIFICATE OF SERVICE
I, Vincent M. Wagner, counsel for Respondent, the State of Arkansas, hereby certify that on this day, November 25, 2020, I caused Respondent’s Brief in Opposition
to be served by email, pursuant to this Court’s order of April 15, 2020, and agreement
of the parties, on the following counsel:
Teri L. Chambers
Arkansas Public Defender Commission
101 East Capitol Avenue, Suite 201
Little Rock, Arkansas 72201
teri.chambers@arkansas.gov
Counsel for Petitioner
I further certify that all parties required to be served have been served.

VINCENT M. WAGNER
Deputy Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(501) 682-8090
vincent.wagner@arkansasag.gov

